No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE
I hereby certify that I am a member of the bar of this Court and that on this
20th day of September, 2021, pursuant to Rule 29.3 of the Supreme Court Rules, I
have caused copies of the foregoing Brief of Amicus Curiae of Habeas Scholars in
Support of Respondents to be served by Federal Express Overnight Delivery and
electronic transmission upon counsel listed below:
Federal Express Overnight Delivery
Robert Mark Loeb
Counsel of Record
Orrick, Herrington & Sutcliffe LLP
1152 15th Street, NW
Washington, District of Columbia 20005
rloeb@orrick.com
COUNSEL OF RECORD FOR RESPONDENTS

Federal Express Overnight Delivery
Lacey Stover Gard
Counsel of Record
Office of the Attorney General
400 West Congress Street, Bldg. S-315
Tucson, Arizona 85701
lacey.gard@azag.gov
COUNSEL OF RECORD FOR PETITIONERS

Federal Express Overnight Delivery
Timothy M. Gabrielsen
Federal Public Defender’s Office
407 West Congress Street, Ste. 501
Tucson, Arizona 85701
tim_gabrielsen@fd.org
COUNSEL FOR RESPONDENTS

Dated at New York NY, this 20th day of September, 2021.
/S/
BORIS BERSHTEYN
Boris Bershteyn
Counsel of Record
Mollie Kornreich
Thania Charmani
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001
(212) 735-3000
ATTORNEY FOR Amicus Curiae

